No. 20-1364
IN THE

BOFI HOLDING, INC., et al.,
Petitioners,
v.
HOUSTON MUNICIPAL EMPLOYEES PENSION SYSTEM,
Respondent.
On Petition for a Writ of Certiorari
to the United States Court of Appeals
for the Ninth Circuit
BRIEF IN OPPOSITION

Richard M. Heimann
Katherine Lubin Benson
Michael K. Sheen
LIEFF CABRASER HEIMANN
& BERNSTEIN, LLP
275 Battery Street
29th Floor
San Francisco, CA 94111
(415) 956-1000
rheimann@lchb.com
Daniel P. Chiplock
Michael J. Miarmi
Jessica A. Moldovan
LIEFF CABRASER HEIMANN
& BERNSTEIN, LLP
250 Hudson Street
8th Floor
New York, NY 10013
(212) 355-9500

Eric F. Citron
Counsel of Record
Molly Runkle
GOLDSTEIN &
RUSSELL, P.C.
7475 Wisconsin Ave.
Suite 850
Bethesda, MD 20814
(202) 362-0636
ecitron@goldsteinrussell.com

QUESTIONS PRESENTED
The questions presented are:
1. Whether “disputed public allegations about an
issuer or its business, without any additional
corroborating disclosure or event,” can establish the
loss-causation element of a 10b-5 securities fraud
claim.
2. Whether the magnitude of a defendant
company’s stock price drop can be considered when
asking whether a plaintiff has adequately pleaded loss
causation.
3. Whether the Court should overrule Basic Inc.
v. Levinson, 485 U.S. 224 (1988) to the extent it
recognizes the “efficient capital markets hypothesis.”

ii
TABLE OF CONTENTS
QUESTIONS PRESENTED ......................................... i
TABLE OF AUTHORITIES ....................................... iii
INTRODUCTION ........................................................ 1
STATEMENT OF THE CASE..................................... 1
A. Legal Background........................................... 1
B. Factual and Procedural Background ............. 5
REASONS FOR DENYING THE WRIT................... 10
I.

The First Question Presented Does Not
Warrant Review .................................................. 10
A. There Is No Circuit Conflict ......................... 10
B. The Ninth Circuit’s Decision Was Correct..... 21

II. The Second Question Presented Is Not
Certworthy ........................................................... 26
III. There Is No Need To Reconsider A Precedent
This Court Recently Reaffirmed ......................... 29
CONCLUSION .......................................................... 34

iii
TABLE OF AUTHORITIES
Cases
Amgen Inc. v. Conn. Ret. Plans & Tr. Funds,
568 U.S. 455 (2013) .................................................. 2
Basic Inc. v. Levinson,
485 U.S. 224 ................................................... passim
Bell Atl. Corp. v. Twombly,
550 U.S. 544 (2007) ................................................ 23
In re Countrywide Fin. Corp. Sec. Litig.,
273 F.R.D. 586 (C.D. Cal. 2009) ............................ 32
Curry v. Yelp Inc.,
875 F.3d 1219 (9th Cir. 2017) ................................ 28
Dura Pharm., Inc. v. Broudo,
544 U.S. 336 (2005) ........................................ passim
Erica P. John Fund, Inc. v. Halliburton Co.,
563 U.S. 804 (2011) .................................................. 4
FindWhat Inv. Grp. v. FindWhat.com,
658 F.3d 1282 (11th Cir. 2011) .............................. 18
Goldman Sachs Grp., Inc. v. Ark. Tchr. Ret. Sys.,
594 U.S. ____ (2021) ................................................. 3
Halliburton Co. v. Erica P. John Fund, Inc.,
573 U.S. 258 (2014) ........................................ passim
John R. Sand & Gravel Co. v. United States,
552 U.S. 130 (2008) ................................................ 30
Loos v. Immersion Corp.,
762 F.3d 880 (9th Cir. 2014) ...................... 12, 13, 16
Meyer v. Greene,
710 F.3d 1189 (11th Cir. 2013) ...................... passim
Norfolk Cnty. Ret. Sys. v. Cmty. Health Sys., Inc.,
877 F.3d 687 (6th Cir. 2017) .......................... passim

iv
Sapssov v. Health Mgmt. Assocs.,
608 Fed. Appx. 855 (11th Cir. 2015).... 15, 16, 17, 18
Schleicher v. Wendt,
618 F.3d 679 (7th Cir. 2010) .................................. 32
Tellabs, Inc. v. Makor Issues & Rts., Ltd.,
551 U.S. 308 (2007) ................................................ 23
Statutes
Private Securities Litigation Reform Act,
Pub. L. No. 104-67, 109 Stat. 737 ........ 23, 24, 25, 33
Securities Exchange Act of 1934,
15 U.S.C. §78a et seq. ............................................... 1
Securities Litigation Uniform Standards Act of
1998, Pub. L. No. 105-353, 112 Stat. 3227 ............ 33
15 U.S.C. §78j(b) .......................................................... 1
15 U.S.C. §78u-4(b) .................................................... 23
15 U.S.C. §78u-4(b)(4) ............................................... 24
Regulations
17 C.F.R. §240.10b-5 .......................................... passim
Rules
Fed. R. Civ. P. 9(b) ................................................. 9, 23
Fed. R. Civ. P. 23(b)(3)................................................. 2
11th Cir. R. 36-2 ........................................................ 15
Other Authorities
A Remarkable History, Vanguard,
https://vgi.vg/3wNAGBF
(last visited June 25, 2021) .................................... 31

INTRODUCTION
Petitioners present three questions, each less worthy of this Court’s attention than the last. Only one
involves an alleged circuit conflict, and on examination, the only “conflict” it presents is between, on one
hand, two very sound decisions from highly respected
judges (Judge Kethledge of the Sixth Circuit and
Judge Watford of the Ninth Circuit), and an out-ofcontext line of dictum from an unpublished Eleventh
Circuit decision on the other. Moreover, even if there
were some more generalized tension between the opinions at issue, it is one this Court has already recently
declined to resolve. 1 Meanwhile, petitioners’ second
question presented seeks nothing more than error correction based on a highly dubious misreading of one of
this Court’s cases. And their third asks this Court to
overrule a statutory construction precedent it recently
reaffirmed in Halliburton Co. v. Erica P. John Fund,
Inc., 573 U.S. 258, 267 (2014) (Halliburton II). The
petition should be denied.
STATEMENT OF THE CASE
A. Legal Background
1. The plaintiffs here are shareholders who sued
petitioners under §10(b) of the Securities Exchange
Act of 1934, 15 U.S.C. §78j(b), and Securities and Exchange Commission (SEC) Rule 10b-5, 17 C.F.R.
§240.10b-5. Pet. App. 5a.
Section 10(b) and Rule 10b-5 “prohibit making
any material misstatement or omission in connection

1

See Cmty. Health Sys., Inc. v. N.Y.C. Emps.’ Ret. Sys., 139
S. Ct. 310 (2018) (No. 17-1453).

2
with the purchase or sale of any security.” Halliburton
II, 573 U.S. at 267. This Court has “long recognized
an implied private cause of action to enforce” these
prohibitions. Id.
To state such a claim, a plaintiff must adequately
plead six elements: “(1) a material misrepresentation
or omission by the defendant; (2) scienter; (3) a connection between the misrepresentation or omission and
the purchase or sale of a security; (4) reliance upon the
misrepresentation or omission; (5) economic loss; and
(6) loss causation.” 573 U.S. at 267 (quoting Amgen
Inc. v. Conn. Ret. Plans & Tr. Funds, 568 U.S. 455,
460-61 (2013)). This case principally raises issues
arising from the sixth element (loss causation), but the
fourth element (reliance) is implicated, too.
2. “The reliance element ‘ensures that there is a
proper connection between a defendant’s misrepresentation and a plaintiff’s injury.’” Halliburton II, 573
U.S. at 267 (quoting Amgen, 568 U.S. at 461). The
most straightforward showing of reliance is that a
plaintiff “was aware of a company’s statement and engaged in a relevant transaction—e.g., purchasing common stock—based on that specific misrepresentation.”
Id. (citation omitted). In Basic Inc. v. Levinson, 485
U.S. 224 (1988), however, this Court recognized that
requiring such proof in every case “would place an unnecessary unrealistic evidentiary burden on the Rule
10b-5 plaintiff who has traded on an impersonal market,” id. at 245, and would bar plaintiffs “from proceeding with a class action” because “individual issues …
would … overwhelm[] the common ones,” rendering
Fed. R. Civ. P. 23(b)(3) certification impossible, id. at
242.

3
Basic therefore stands for the proposition “that securities fraud plaintiffs can in certain circumstances
satisfy the reliance element of a Rule 10b-5 action by
invoking a rebuttable presumption of reliance, rather
than proving direct reliance on a misrepresentation.”
Halliburton II, 573 U.S. at 268. That presumption is
based on the “‘fraud-on-the-market’ theory, which
holds that ‘the market price of shares traded on welldeveloped markets reflects all publicly available information, and, hence, any material misrepresentations.’” Id. (quoting Basic, 485 U.S. at 246). In 2014,
this Court reaffirmed the continuing vitality of Basic
and the presumption after granting certiorari to consider whether Basic should be modified or overruled.
Id. at 269.
To invoke the presumption, a plaintiff must show:
“(1) that the alleged misrepresentations were publicly
known, (2) that they were material, (3) that the stock
traded in an efficient market, and (4) that the plaintiff
traded the stock between the time the misrepresentations were made and when the truth was revealed.”
Halliburton II, 573 U.S. at 268. And even if a plaintiff
makes that prima facie showing, defendants can rebut
the presumption with “[a]ny showing that severs the
link between the alleged misrepresentation and either
the price received (or paid) by the plaintiff, or his decision to trade at a fair market price.” Id. at 269 (quoting Basic, 485 U.S. at 248) (brackets in original). Defendants can, for example, “prove a lack of price impact” at the class-certification stage. Goldman Sachs
Grp., Inc. v. Ark. Tchr. Ret. Sys., 594 U.S. ____ (2021),
slip op. at 11.

4
3. “Loss causation addresses a matter different
from whether an investor relied on a misrepresentation, presumptively or otherwise, when buying or selling a stock.” Erica P. John Fund, Inc. v. Halliburton
Co., 563 U.S. 804, 812 (2011) (Halliburton I). Much
like proximate cause in the tort context, loss causation
“requires a plaintiff to show that a misrepresentation
that affected the integrity of the market price also
caused a subsequent economic loss” to the plaintiff
herself. Id.; see Dura Pharm., Inc. v. Broudo, 544 U.S.
336, 343-46 (2005). Plaintiffs often show this by
demonstrating that a defendant’s misstatements artificially inflated the share price, which in turn led to a
price drop after a “corrective disclosure.” In that scenario, a loss has been caused for any plaintiff who purchased in the interim between when the defendant
started making false or misleading statements and
when the fraud became known to the market. And in
this vein, a large price drop after the market receives
information that contradicts what the defendant has
been saying of course constitutes strong prima facie
evidence that those allegedly fraudulent statements
had been inflating the stock price, causing a loss to anyone who purchased after the price started being artificially inflated and before the fraud was publicly revealed. Pet. App. 11a-12a.
At one point, certain courts of appeals took a
broader view and considered loss causation established by the purchase of a price-inflated stock alone.
In other words, they did not require plaintiffs to also
allege that they held shares through the popping of the
bubble that the fraud had blown up. In Dura, however, this Court clarified that merely purchasing dur-

5
ing the inflation “will not itself constitute or proximately cause the relevant economic loss.” 544 U.S. at
342. Instead, a plaintiff needs to “provide a defendant
with some indication of the loss and the causal connection that the plaintiff has in mind” between the loss
and the misrepresentation. Id. at 347. And in the ordinary case, that requires alleging both that a plaintiff
purchased while the stock price was inflated, and that
the revelation of the alleged fraud caused the price to
fall back down while the plaintiff still held her shares.
B. Factual and Procedural Background
1. BofI Holding, Inc. offers consumer and business checking, savings, and time-deposit accounts, as
well as financing for real estate, businesses, and vehicles.2 Pet. 7.
From September 4, 2013 to February 3, 2016 (the
“Class Period”), BofI and several of its executives misled investors into believing that BofI was a safer investment than it was. Pet. App. 5a. Specifically, “defendants made false or misleading statements touting
the bank’s conservative loan underwriting standards,
its effective system of internal controls, and its robust
compliance infrastructure.” Id. For example, with regard to the Company’s underwriting standards, BofI
made statements such as: “We continue to maintain
our conservative underwriting criteria and have not
loosened credit quality to enhance yields or increase
loan volumes.” Id. at 6a. And concerning its internal
controls and compliance infrastructure, the Company
2

BofI Holding, Inc. has since changed its name to Axos
Financial, Inc. To avoid confusion, this brief refers to the
corporate petitioner (as well as its subsidiary, previously known
as BofI Federal Bank) as “BofI.” See Pet. 7 n.1.

6
claimed to “have made significant investments in [its]
overall compliance infrastructure,” and to “have spent
a significant amount of money on [Bank Secrecy Act
and anti-money laundering] compliance upgrades and
new systems and new personnel.” Id. at 6a-7a.
Plaintiffs allege (plausibly, according to district
court holdings petitioners do not challenge here, see
Pet. App. 6a-7a) that those statements were untrue.
Indeed, on two separate occasions, id. at 37a-38a, the
district court held below that plaintiffs sufficiently alleged that those statements were actionably false or
misleading. Id. at 6a-7a. It did so based on confidential witness statements from previous BofI employees
with personal knowledge of contemporaneous facts.
Id. At trial, plaintiffs will attempt to prove that this
insider testimony was credible and correct, so that
they can prove BofI’s contrary public statements were
misleading or false.
Plaintiffs relied on different insider allegations,
however, when it came to alleging loss causation. On
that score, plaintiffs alleged that a whistleblower complaint filed publicly by Charles Erhart—a former BofI
auditor—let the air out of a BofI’s artificially inflated
stock price, which had been kept aloft by the false
statements above. 3 Pet. App. 9a; see also Erhart v.
3

Plaintiffs also alleged other corrective disclosures in the
form of eight anonymous blog posts that charged BofI with
“allegations of potential regulatory violations” and “evidence of
risky loan origination partnerships.” Pet. App. 9a. The complaint
alleged that after each blog post appeared, BofI’s stock price
dropped meaningfully. Id. at 10a. The Ninth Circuit held that
the posts did not constitute corrective disclosures because they
relied on information the public already had and because “[t]he

7
BofI Holding Inc., No. 15-cv-2287 (S.D. Cal. Oct. 13,
2015).
That complaint “alleged rampant and egregious
wrongdoing at the company, including that BofI had
doctored reports submitted to the bank’s primary regulator … and that BofI had made high-risk and illegal
loans to foreign nationals.” Pet. App. 9a. Those allegations cannot be squared with BofI’s public statements. Id. at 14a-15a. For example, Erhart alleged
that he prepared a memorandum summarizing a
third-party vendor’s report on BofI operations which
had identified about 30% of BofI’s customers as having
red flags, and that when he gave that list to his superior, the superior demanded that the list be altered before going to the regulator. Id. at 15a. Erhart further
alleged retaliation from BofI for his attempts to report
compliance violations. Id. If believed, such allegations
plainly “render BofI’s prior assertions about the
strength of its underwriting standards, internal controls, and compliance infrastructure false or misleading.” Id.
And they were believed: The complaint, along
with a contemporaneous New York Times article that
published the details of it, was promptly digested and
credited by the market. Pet. App. 9a. By the close of
trading the next day, BofI’s stock price had fallen over
30% on “extremely high trading volume.” Id. This suit
followed.

posts were authored by anonymous short-sellers who had a
financial incentive to convince others to sell,” such that a
“reasonable investor reading these posts would have likely taken
their contents with a healthy grain of salt.” Id. at 27a-28a. As
such, those posts are not at issue here.

8
2. In a series of orders before the order at issue
here, the district court held that plaintiffs adequately
pleaded the first five elements of a 10b-5 claim. Pet.
App. 5a. As to “falsity,” the court held that a number
of the bank’s statements concerning its underwriting
standards, as well as its internal controls and compliance systems, were adequately alleged to be actionably
false. Id. at 6a. It reached that conclusion largely by
crediting the allegations of confidential former BofI
employees, finding them reliable and based on personal knowledge. Id. at 7a. The court also found that
shareholders adequately alleged scienter with respect
to BofI’s CEO, and thus the company as well. Id. at
8a. All other elements save loss causation—including
the use of Basic to prove reliance—were uncontested.
See id.
On loss causation, however, the district court
ruled for BofI. Ignoring that the market had clearly
believed Erhart’s allegations, the court reasoned that
the disclosures in his complaint could not be used to
establish loss causation because “unconfirmed accusations of fraud” could not disclose to the market that
BofI’s prior statements were false. Pet. App. 10a. The
district court therefore dismissed. Id.
3. The Ninth Circuit reversed in relevant part,
holding that plaintiffs “adequately pleaded a viable”
10b-5 claim “for the two categories of misstatements
the district court found actionable, with the Erhart
lawsuit serving as a potential corrective disclosure.”
Pet. App. 29a. The court of appeals first “agree[d] with
the district court that [plaintiffs] adequately alleged
falsity and scienter with respect to misstatements concerning BofI’s underwriting standards, internal controls, and compliance infrastructure.” Id. at 10a.

9
Thus, in assessing loss causation, the court began
“with the premise that BofI’s misstatements were
false” (as plaintiffs had sufficiently alleged), “and
ask[ed] whether the market at some point learned of
their falsity.” Id. at 16a (emphasis omitted). When
“[v]iewed through that prism,” the court found, “the
relevant question for loss causation purposes is
whether the market reasonably perceived Erhart’s allegations as true and acted upon them accordingly.”
Id. And the court easily concluded that the answer to
that question was “yes.” Id.
In particular, the court of appeals determined that
the complaint plausibly (and with particularity, under
Fed. R. Civ. P. 9(b), as required by the Ninth Circuit)
alleged that the market found Erhart’s allegations
credible and acted upon them because (1) the Erhart
allegations were “highly detailed and specific”;
(2) they were based on firsthand knowledge; (3) the
timing and magnitude of the price drop, as well as the
high trading volume, “bolster[ed]” the credibility inference; and (4) Erhart’s potential monetary motivations
for suing BofI were not strong enough to discount
those credibility determinations. Pet. App. 16a-17a.
The court also rejected a categorical rule that contested allegations in a lawsuit can never qualify as corrective disclosures, reasoning that “short of an admission by the defendant or a formal finding of fraud,” all
corrective disclosures would be contestable. Id. at 17a.
The court then distinguished its own cases in which it
held that mere announcements of investigations or
complaints by outsiders had not sufficed to support a
plausible allegation of loss causation. Id. at 18a-19a.

10
In so doing, the court highlighted the numerous factors that may bear on the appropriate determination
of this question. Id. at 14a-19a.
Judge Lee concurred in part and dissented in part.
With respect to the Erhart allegations, he wrote that
“if a securities fraud lawsuit turns on insider allegations of wrongdoing in a whistleblower lawsuit, I
would prefer a bright-line rule that requires an external disclosure or evidence that confirms those allegations.” Pet. App. 35a. While Judge Lee would not require “a mea culpa from the company,” he would like
“perhaps a surprise restatement of earnings, an unexplained announcement about an increase in reserves,
or some other information that confirms those allegations and thus acts as a corrective disclosure.” Id.
4. The Ninth Circuit denied petitioners’ request
for rehearing and rehearing en banc. Pet. 12; Pet. App.
73a. This petition followed.
REASONS FOR DENYING THE WRIT
I.

The First Question Presented Does Not
Warrant Review.
A. There Is No Circuit Conflict.

Without defining their terms, petitioners first ask
whether “disputed public allegations” can be used to
establish the loss-causation element of a 10b-5 claim,
at least without “any additional corroborating disclosure or event.” Pet. i. They allege a shallow conflict
on this broad question between the Ninth and Sixth
Circuits on one hand and the Eleventh Circuit on the
other. Pet. 13-16. But this purported split does not
hold up to even modest scrutiny. First, it conflates two
rather different kinds of cases: one involving specific
factual allegations made in a whistleblower complaint

11
(as here), and the other involving mere announcements of investigations into the defendant companies.
And this conflation is necessary to support the petition
because it is quite clear that the Ninth and Eleventh
Circuits treat the latter category of cases the same,
and the Eleventh Circuit’s only published decision concerns just such a case. Accordingly, the split depends
entirely on an unpublished Eleventh Circuit decision
that is easily distinguished from this case. And even
if there were some nascent conflict here, this overly
broad question requires additional percolation, particularly because—as petitioners themselves have highlighted—the Ninth Circuit’s take on the very broad
question petitioners have chosen to confusingly present is itself far from clear—likely because, at such a
high level of abstraction, this is really just a fact-bound
determination that varies with each particular case.
1. Investigation Announcements
The Eleventh and Ninth Circuits have both published decisions in cases where the alleged corrective
disclosure for purposes of loss causation is the announcement of an investigation into the defendant
firm. And both courts held that those announcements
could not play the corrective-disclosure role. That is
the beginning and end of petitioners’ alleged circuit
split.
The Eleventh Circuit case in this pair is Meyer v.
Greene, 710 F.3d 1189 (11th Cir. 2013), which did not
address allegations in a whistleblower complaint or
any kind of separate complaint at all. Instead, Meyer
held that (1) the disclosure of information in a presentation made by an outsider that was “gleaned entirely
from public filings and other publicly available information” could not show loss causation because, under

12
the fraud-on-the-market theory, any publicly available
information would have already been factored into the
issuer’s stock price ahead of that presentation, id. at
1197-1200; and (2) the announcement of an informal
SEC inquiry and the later announcement of an SEC
private order of investigation could not constitute a
corrective disclosure because “the SEC never issued
any finding of wrongdoing or in any way indicated that
the Company had violated the federal securities laws,”
id. at 1200-02. As the court explained, “[t]he announcement of an investigation reveals just that—an
investigation—and nothing more.” Id. at 1201.
The Ninth Circuit agrees. In Loos v. Immersion
Corp., 762 F.3d 880, 883 (9th Cir. 2014), the court considered whether a company’s announcement that it
was “conducting an internal investigation into certain
previous revenue transactions” could alone establish
loss causation, id. at 885. The court decided that “the
mere announcement of an investigation is not
enough.” Id. at 889. In so holding, it explicitly relied
on Meyer. Id. at 890 (“We agree with the Eleventh Circuit’s reasoning.”). The Ninth Circuit thus explained
that “at the moment an investigation is announced,
the market cannot possibly know what the investigation will ultimately reveal.” Id. And yet it also highlighted that, while an investigation announcement itself is insufficient, “[t]o the extent an announcement
contains an express disclosure of actual wrongdoing,
the announcement alone might suffice.” Id. at 890 n.3.
Notably, in the opinion below, the Ninth Circuit
expressly maintained the continuing vitality of this
rule. Pet. App. 18a. It thus distinguished cases involving investigation announcements from cases (like
this one) involving independent, and highly detailed,

13
allegations of wrongdoing that contradict the allegedly
fraudulent statements that are set out in a securities
suit against the defendant. Id. The Eleventh and
Ninth Circuits’ respective analyses entail nothing
more than fact-bound variations among cases with different fact patterns—not a “split” on a dispositive rule.
Meyer is the only published case on petitioners’
side of their own imagined split. And as the foregoing
shows, the Ninth and Eleventh Circuits agree on how
to treat a case like Meyer, whose facts are not even implicated here. That is enough to deny review on petitioners’ first question.
2. Allegations Within a Separate Complaint
Petitioners’ effort to show otherwise requires
wrenching dicta in an unpublished Eleventh Circuit
decision out of context. And even if petitioners were
not wrong about what that case says, that is not the
kind of circuit conflict this Court should resolve.
a. As explained supra 8-10, the Ninth Circuit below held that allegations within a whistleblower complaint can, in appropriate instances, suffice to allege
disclosure of the fraud for purposes of alleging loss
causation. Pet. App. 17a. And it decided that, in this
case, the complaint at issue was in fact sufficiently
credible to sustain plaintiffs’ pleading-stage allegation
that the market “perceived Erhart’s allegations as
credible and acted upon them on the assumption that
they were true.” Id. at 16a.
Notably, in so doing, the Ninth Circuit distinguished its own decision in Loos on the basis that “an
[investigation] announcement does not reveal to the
market any facts that could call into question the veracity of the company’s prior statements,” whereas

14
here, “Erhart’s lawsuit disclosed facts that, if true,
rendered false BofI’s prior statements about its underwriting standards, internal controls, and compliance
infrastructure.” Pet. App. 18a. Put another way, the
Ninth Circuit treats announcements regarding the beginning of an investigation as insufficient to establish
loss causation because, taken as true, the statement
“we are investigating Company X for misconduct” does
not contradict any plausibly actionable misrepresentation (other than perhaps a company’s wrongful concealment of the existence of an investigation)—even if
the statement regarding the investigation is taken as
true. In contrast, allegations within a complaint that
are contrary to alleged (and, here, concededly actionable) misstatements do reflect public disclosure of the
fraud on the (procedurally commanded) assumption
that the statements in the complaint are true and the
alleged misstatements are false.4
The Sixth Circuit has also rejected any categorical
rule about allegations within separate complaints. See
Norfolk Cnty. Ret. Sys. v. Cmty. Health Sys., Inc., 877
F.3d 687, 696 (6th Cir. 2017) (Kethledge, J.), cert. denied, 139 S. Ct. 310 (2018). Like the Ninth Circuit, the
Sixth Circuit holds that an allegation revealed in a
4
To the extent petitioners (in various half-hidden footnotes)
do not concede that the falsity of their misstatements has been
adequately alleged for present purposes, see, e.g., Pet. 10 n.4, 11
n.5, that is of course a fatal problem for their petition. It shows
that petitioners cannot coherently present their question without
disputing premises that were litigated and decided below and on
which they have not sought certiorari here. This Court would have
to consider this loss-causation case on the assumption that
petitioners in fact made actionably fraudulent misstatements.
And petitioners’ footnotes show that, on that assumption, their
position makes no sense at all.

15
complaint should be considered on a case-by-case basis
“to determine whether the market could have perceived it as true.” Id. The court reasoned that “every
representation of fact is in a sense an allegation,
whether made in a complaint, newspaper report, press
release, or under oath in a courtroom.” Id. And it then
noted that, as a general matter, some of those are more
credible that others. But the court of appeals stressed
that, even within each category, there can be different
levels of credibility, so courts should consider whether
the subject disclosure is a credible revelation of the
fraud to the market for loss-causation purposes individually, not categorically. Id. The Sixth Circuit then
held that plaintiffs had adequately alleged loss causation there. And, notably, the defendant in that case
sought review of that decision—alleging the same disagreement with the Eleventh Circuit—and this Court
denied review. See supra 1 n.1.
b. That is likely because, just like petitioners
there, the only case petitioners can cite here as presenting any actual conflict with the Sixth Circuit’s decision in Norfolk or the decision below is Sapssov v.
Health Management Associates, 608 Fed. Appx. 855
(11th Cir. 2015) (per curiam), cert. denied, 137 S. Ct.
1331 (2017). And, among many other problems for petitioners, Sapssov is a non-precedential, unreported
decision that cannot create a conflict warranting this
Court’s review. See 11th Cir. R. 36-2.
In any event, Sapssov is readily distinguishable.
In Sapssov, the plaintiffs tried to forge a “corrective
disclosure for the purpose of establishing loss causation” from “two partial disclosures”—an OIG investigation and 2012 “Skolnick” Report. 608 Fed. Appx. at
862. Under a straightforward application of Meyer,

16
the Eleventh Circuit first held that the OIG investigation alone could not suffice because it was only an investigation announcement. Id. at 863. And it then rejected the Skolnick Report as well because it “summarized facts from [a whistleblower] case that had existed in publicly accessible court dockets for three
months” before the Report came out, and the disclosure of already-public information cannot qualify as a
corrective disclosure. Id. Thus, the court held that the
“lack of new information” in the report was “fatal” to
plaintiffs’ loss-causation allegation. Id. (internal quotation marks omitted).
Neither holding is implicated here or in Norfolk.
Indeed, while petitioners argue that Norfolk “confronted essentially the same loss causation theory advanced in Sapssov,” Pet. 15, the Sixth Circuit expressly distinguished Sapssov on the ground that the
analyst report at issue there “merely summarized a
whistleblower complaint filed months before” and
therefore “was not new information,” Norfolk, 877 F.3d
at 697. Petitioners use a broad brush in an attempt to
paint Sapssov as reaching some expansive conclusion
that the Sixth and Ninth Circuits have rejected. But
the reality is that even the Sixth and Ninth Circuits
do not believe that is true, and have instead harmonized their holdings with the Eleventh Circuit’s. See
id. (addressing Sapssov); Pet. App. 18a (explaining
that Loos was in line with Meyer).
Petitioners’ entire imagined circuit split therefore
boils down to a single sentence from Sapssov, crowbarred out of its original context. In Sapssov, the
panel wrote that the “whistleblower case, the basis of
the 2012 Skolnick Report, was not proof of fraud, because a civil suit is not proof of liability.” 608 Fed.

17
Appx. at 863. But, critically, the filing of the whistleblower suit was not the asserted corrective disclosure—the OIG investigation and Skolnick Report
were. Id. at 862. The Eleventh Circuit thus had no
occasion to consider whether the assertions in that
complaint could have sufficed to plead a corrective disclosure for purposes of showing loss causation.5
Moreover, even if the Eleventh Circuit had separately considered whether the filing of the complaint
could qualify as a corrective disclosure, it had no occasion to consider a complaint the market actually credited. Petitioners summarize Sapssov like this: The
Eleventh Circuit “concluded that, whether ‘[t]aken independently or combined,’ the investigation and the
employee’s allegations were ‘inadequate to establish
the falsity of [the hospital system’s] disclosures.’” Pet.
14 (brackets in original); see also SIFMA Amicus Br. 5
(“The Eleventh Circuit affirmed the dismissal of the
suit, holding that whether ‘[t]aken independently or
5

Notably, the plaintiffs in Sapssov petitioned this Court on
the distinct questions “[w]hether a finding of actual wrongdoing
is a legal prerequisite to an investor pleading loss causation based
on the announcement of a government investigation into the defendant’s fraudulent practices,” and “[w]hether an investor who
invokes a fraud-on-the-market presumption of reliance is barred
from pleading loss causation based on a corrective disclosure that
analyzes information already in the public domain but not widely
known to the market.” Pet. i, Norfolk Cnty. Ret. Sys. v. Health
Mgmt. Assocs., 137 S. Ct. 1331 (2017) (No. 16-685) (emphasis
added). (Note that Sapssov was renamed in this Court and
should not be confused with the similarly named case from the
Sixth Circuit.) Absent from their questions presented was
whether the filing of a whistleblower complaint suffices. See id.
at 1-2 (describing the two corrective disclosures as the government investigation announcement and the analyst report, not the
lawsuit itself, which “did not move the market when filed”).

18
combined,’ the subpoenas, whistleblower suit, and the
analyst report do not suffice as corrective disclosures.”) (brackets in original). But that paraphrase
leaves out a critical qualification—what the court actually wrote was: “Plaintiffs-appellants’ allegations
show only there was an OIG investigation, a whistleblower lawsuit the market disregarded, and a negative summary of already public information. Taken
independently or combined, they are inadequate to establish the falsity of HMA disclosures.” 608 Fed.
Appx. at 864 (emphasis added). The emphasized text
is the whole point for loss-causation purposes. And
here, by contrast, plaintiffs have plausibly alleged that
the market did, in fact, react to the whistleblower lawsuit.
Finally, it is unclear what the Sapssov dicta
means. Notably, the court rejected the Skolnick Report because it contained public information generally—not because it revealed the contents of a complaint. Had the Eleventh Circuit meant to suggest
that the contents of a complaint can never serve as
loss-causation evidence (as petitioners suggest), it presumably would have just said that. Moreover, the
Eleventh Circuit had previously instructed (in a published opinion the Sapssov Court cited) that a “corrective disclosure can come from any source, and can take
any form from which the market can absorb the information and react … so long as it reveals to the market
the falsity of the prior misstatements.” FindWhat Inv.
Grp. v. FindWhat.com, 658 F.3d 1282, 1312 n.28 (11th
Cir. 2011) (internal quotation marks and brackets
omitted). That proposition strongly suggests that
Sapssov’s unpublished dictum did not, in fact, an-

19
nounce a broad and contrary categorical rule that allegations in complaints can never constitute corrective
disclosures.
3. This leads to a related weakness of the petition. To manufacture a circuit conflict, petitioners
have been forced to draft an unwieldy and overbroad
question presented that relies on several undefined
and nebulous terms. The result is a question that no
court has squarely considered, and certainly demands
further development.
To begin, petitioners never explain what counts as
a “disputed public allegation” for purpose of their alleged question presented. They of course would prefer
to include whistleblower complaints. But what about
a complaint brought by the Department of Justice or
SEC after a governmental investigation? Or what
about an exposé published in the New York Times using anonymous sources? Or even a verified complaint
containing sworn allegations from an identified whistleblower? As Judge Kethledge presciently explained
in Norfolk, each of these can be considered “disputed”
unless the company decides to come clean. See 877
F.3d at 698. The “rule” petitioners ask this Court to
decide thus has no known scope and would potentially
swallow any number of future cases. Accordingly, a
grant here would likely make things less, not more,
clear.
Indeed, it’s unclear that even a defendant’s admissions would count as “undisputed” under petitioners’
proposed standard. Imagine that the CFO of a company goes on CNBC and admits that the company
cooked the books, at which point its stock price plummets. That seems like a clear-cut case, and securitiesfraud plaintiffs would be unwise to wait for further

20
disclosures while their statute of limitations starts to
run. But suppose the CEO denies any such wrongdoing and accuses the CFO of having a personal vendetta. Do we now have a “disputed public allegation”?
And if not, how is that categorically different from the
case at bar?
These are just some of the consequences that petitioners’ underbaked answer to their overbroad question does not contemplate. But there are more: For
example, what is a “corroborating disclosure or event”?
Do two “disputed public allegations” suffice? At one
point, they suggest that “a finding by a regulator or an
admission by the issuer,” might do the trick, without
explaining why. Pet. 3. And at times, they seem to
suggest that what is needed is some objective indication that the company’s misstatements caused further
harm to the company beyond the price drop, Pet. 1718, even though the 10b-5 action is there to redress the
harm to shareholders who paid the fraudulently inflated price.6 Such logical incoherence is not surprising, however; it is the result of petitioning on a poorly
6

The Ninth Circuit below fully explained petitioners’ error on
this point:
[T]his [adverse business event requirement] misconstrues the
significance of BofI’s alleged misstatements. According to the
shareholders, BofI misrepresented itself as a safe investment
when in fact it was far riskier. The shareholders contend that,
before the corrective disclosures, the price of BofI’s stock was
inflated by the market’s belief that the company’s statements
were true, and that the price declined when the market learned
that BofI’s statements were false. On this account, the
shareholders suffered an economic loss caused by the
misstatements because they purchased their shares at an
inflated price and are now unable to recoup the inflationary

21
theorized question that no lower court has considered
at the level of generality that petitioners must use to
contrive a circuit split.
Accordingly, at an absolute minimum, further
percolation is necessary here. Indeed, at petitioners’
level of generality, the Ninth Circuit’s own rule remains unclear: If one agrees with petitioners’ premise
that announcements of investigations and whistleblower complaints should be treated the same, the
Ninth Circuit has what petitioners themselves call an
“unreconciled” intra-circuit conflict. Pet. 16 n.6. And
such a lack of consensus in one of only three circuits in
petitioners’ asserted inter-circuit “split” would itself
counsel against granting certiorari at this time.
4. That is particularly so because there is no indication that this question comes up with regularity.
Petitioners cite to no rash of securities fraud complaints in which loss causation is based on the filing of
a whistleblower complaint. Such cases should not be
hard to find. But the evident reality is that they are
few and far between.
B. The Ninth Circuit’s Decision Was Correct.
Even if there were a conflict, this Court should not
grant certiorari because the decision below is correct.
Petitioners’ contrary view rests on several analytical
errors carefully identified by Judge Kethledge in Norfolk and the court below.

component in the market. That remains true regardless of
whether the risks concealed by BofI’s misstatements ever
materialized and harmed the bank’s bottom line.
Pet. App. 20a n.4 (emphasis added).

22
1. First, and most importantly, petitioners have
utterly confused the falsity and loss-causation elements of a 10b-5 claim.
To establish a 10b-5 claim, a plaintiff must plead
both “a material misrepresentation or omission by the
defendant” and then “loss causation.” See supra 2.
The district court below held that plaintiffs adequately
pleaded falsity by pointing to allegations attributed to
confidential witnesses separate from the whistleblower complaint. Pet. App. 6a-7a. And petitioners
have not sought certiorari on that holding in this
Court. Accordingly, this Court must take as a given at
this stage that the actionable statements identified by
the district court were false and—like the Ninth Circuit—“begin with the premise that BofI’s misstatements were false and ask whether the market at some
point learned of their falsity” in analyzing loss causation. Id. at 16a. And here there is no contesting that
the market learned of the statements’ falsity because
(1) the whistleblower complaint plainly contradicts the
allegedly fraudulent statements; and (2) the market
saw, believed, and immediately reacted to that same
whistleblower complaint. See supra 7-10. Whether
the contradictory statements in the whistleblower
complaint are themselves true is just the question of
whether defendants’ actionable statements were false
or not—a question assumed in plaintiffs’ favor (assuming a plausible and particularized pleading) on a motion to dismiss.
Judge Lee’s concern that the decision below “will
have the unintended effect of giving the greenlight for
securities fraud lawsuits based on unsubstantiated assertions that may turn out to be nothing more than
wisps of innuendo and speculation,” Pet. App. 30a, is

23
therefore misplaced. Indeed, the answer to Judge
Lee’s question: “If there is no fraud, can a securities
fraud lawsuit still proceed?” is obviously no, but not
because of the loss-causation element. The critical insight is that plaintiffs still must plead that the defendants made false or misleading statements or omissions
and that they acted with scienter. And more than
that—plaintiffs must plead as much with particularity
under Fed. R. Civ. P. 9(b) and under the heightened
pleading standards set forth in the Private Securities
Litigation Reform Act of 1995 (PSLRA), 15 U.S.C.
§78u-4(b); see also Dura, 544 U.S. at 345-46. And
those allegations will be fully tested under both Bell
Atlantic Corp. v. Twombly, 550 U.S. 544 (2007), and
(for scienter) the even more stringent standards of the
PSLRA—as further articulated in Tellabs, Inc. v. Makor Issues & Rights, Ltd., 551 U.S. 308 (2007)—on a
motion to dismiss, and then tested again on a motion
for summary judgment.7
2. The Ninth Circuit’s rule is, moreover, entirely
in line with this Court’s decision in Dura. In Dura,
this Court held that “an inflated purchase price will
not itself constitute or proximately cause the relevant
market loss,” giving the example of a purchaser who
“sells the shares quickly before the relevant truth begins to leak out.” 544 U.S. at 342. In that case, “the
misrepresentation will not have led to any loss,” and
the loss-causation element operates to ensure that
such a plaintiff cannot assert a claim based on benefits

7

Indeed, while this Court has not decided whether allegations regarding loss causation must satisfy Rule 9(b)’s particularity requirement, the Ninth Circuit has held they do. See Pet. App.
20a.

24
it received from selling at an artificially inflated price.
Id. Accordingly, this Court explained that loss causation requires a sale “after the truth makes its way into
the marketplace,” id., or “after the truth became
known,” id. at 347.
Petitioners here use that language to suggest that
Dura was creating a rule that, in order to sufficiently
allege loss causation and survive a motion to dismiss,
a plaintiff must essentially prove that the revelation
that caused the stock to drop precipitously revealed
the real truth—and thus the falsity of the alleged
fraudulent misstatements. For example, petitioners
complain that “[t]reating unsubstantiated allegations
of company misconduct as capable of revealing the
‘truth’ whenever the court divines that market participants ‘perceived [them] as true’ incorrectly equates
proof of perceived ‘truth’ with proof that the actual
‘truth became known.’” Pet. 17 (quoting Dura, 544
U.S. at 347 with emphasis added). This argument is
plainly unmoored from Dura: It has nothing to do with
the question whether the plaintiff can sue based on
price inflation alone or must instead allege that they
sold after a public revelation caused the inflated price
to drop back down. It is also unmoored from the
PSLRA, which requires only that a plaintiff show that
defendants’ actions “caused the loss.” 15 U.S.C. §78u4(b)(4). And perhaps worst of all, it is unmoored from
any logical connection to the concept of loss causation
itself: Both the Ninth and Sixth Circuits are correct
that what matters for loss causation is what actually
happened in the market—whether the revelation
caused a loss—and not whether the revelations were
ultimately true or false. See supra 22-23 (explaining
that plaintiff must separately allege and then prove

25
falsity); Norfolk, 877 F.3d at 696 (noting that the inquiry is “whether the market could have perceived it
as true”). And the significance of this distinction is
even more apparent at the pleading stage, where
plaintiffs’ particularized allegations of falsity must be
assumed true in order to respect (among other things)
their lack of pre-suit discovery and Seventh Amendment rights.
3. Petitioners’ apocalyptic arguments about
strategically false whistleblower complaints are unpersuasive. Pet. 28-31. They argue, for example, that
“[c]ompetitors, prospective acquirers, disgruntled employees and short-sellers can publicize unsubstantiated allegations of insider wrongdoing, trigger a stock
price drop and lie in wait for a potentially devastating
‘bet the company’ securities class action.” Pet. 5.
Again, this argument relies on the same trick: Petitioners act as though loss causation is the only element
of a 10b-5 claim, and so once again ignore that plaintiffs must also plausibly plead—with particularity under the heightened pleading standards of the
PSLRA—that the company made misleading statements or omissions with scienter. Contrary to petitioners’ argument, then, the mere filing of a separate
whistleblower complaint along with a price drop is still
insufficient to maintain a 10b-5 class action, even under the Ninth Circuit’s test.
Petitioners also fail to appreciate the irony of citing short-seller reports as potential fodder for an influx of securities cases. Pet. 5. The Ninth Circuit below rejected plaintiffs’ loss-causation allegations based
on such reports, reasoning that investors likely would
not have attached the same level of credibility to re-

26
ports by anonymous short sellers who may have an incentive to lower the price of BofI’s stock. Pet. App.
21a-28a. That was so even though each of the shortseller disclosures was followed by a substantial price
decline. Petitioners’ (and Judge Lee’s) concerns that
the Ninth Circuit’s ruling with respect to Erhart’s
complaint will open the floodgates to meritless “strike
suits” following any rumor or speculation in the market is thus unfounded.
II. The Second Question Presented Is Not
Certworthy.
1. On the second question—whether a court can
consider the magnitude of a price drop in assessing
loss causation—petitioners do not even try to manufacture a circuit conflict. Instead, they allege a “conflict between the decision below and Dura and a misapplication of Basic.” Pet. 19. This request for error
correction should be summarily rejected.
And in any event, there is no “conflict” between
the decision below and Dura. Indeed, nothing in Dura
even discusses whether the magnitude of a price drop
can be a consideration in the loss-causation inquiry.
Perhaps Dura could be read to say that a price drop
alone is not enough to show that a disclosure caused
the loss because, for example, the purchaser could
have sold off its stock before the drop or because the
drop could be attributable to other events in the market. 544 U.S. at 342-43. But nothing in Dura suggests
that features of the price drop itself are irrelevant
when asking whether the disclosure caused the drop.
Petitioners’ efforts to show otherwise rely on the (now
familiar) effort to emphasize (and misconstrue) random dicta rather than the question Dura decided. See,
e.g., Pet. 20.

27
2. In any event, this question is not important
enough for this Court’s review, and the Ninth Circuit’s
analysis was exactly right.
To be clear, the Ninth Circuit below suggested
that the magnitude and timing of a stock price drop
are factors to be considered in analyzing whether the
market plausibly perceived a whistleblower complaint’s allegations to be credible. The court also considered other facts, such as the “highly detailed and
specific” nature of the whistleblower’s allegations and
that “they are based on firsthand knowledge that [the
whistleblower] could reasonably be expected to possess by virtue of his position as a mid-level auditor at
the company.” Pet. App. 16a. The court further considered the whistleblower’s potential monetary motivations in filing the suit, and then “[t]he fact that
BofI’s stock price plunged by more than 30% on extremely high trading volume immediately after the
market learned of Erhart’s allegations.” Id. at 17a.
And the court said this last fact merely “bolster[ed] the
inference that the market regarded his allegations as
credible.” Id. The court also noted that “the drop is
not readily attributable to non-fraud-related factors.”
Id. Thus, the degree of the market’s reaction was
merely one consideration.8
Nowhere in the Ninth Circuit’s opinion does the
court indicate that it will “effectively presume[] loss

8

For this reason, this case is also a poor vehicle through
which to consider this question. Because the Ninth Circuit found
that the magnitude of the drop simply bolstered the inference
that the disclosure caused the price drop, the outcome would
likely be the same even if this Court (somehow) held that this fact
should be excluded entirely.

28
causation in all fraud-on-the-market securities class
actions,” as petitioners exaggerate. Pet. 4. Nor is the
loss causation inquiry now a “mere perfunctory exercise.” Id. Indeed, this argument is belied by the very
decision below, which went on to hold that petitioners’
other loss-causation evidence (the anonymous blog
posts) was not sufficient for loss-causation purposes
because they would not be seen as credible, regardless
of the accompanying stock drop. See supra 6-7 n.3. In
truth, the Ninth Circuit made very clear that loss causation is a fact-bound, case-by-case inquiry in which
the court considers whether the plaintiff plausibly alleged that the market considered the relevant revelations credible. And there is nothing remotely strange
(or case dispositive) about including the extent of the
market’s immediate reaction to a revelation as meaningful evidence on that particular question.
For example, in this case, the court considered as
weighing in favor of credibility the fact that the complaint was brought by an insider whistleblower who
could reasonably be expected to have the information
he alleged. Pet. App. 16a. That was in contrast to a
case in which “plaintiffs accused Yelp of falsely representing that the reviews it posted were authentic and
independent,” and then, to establish loss causation,
cited the “disclosure” of complaints to the Federal
Trade Commission about Yelp manipulating reviews.
Id. at 19a (citing Curry v. Yelp Inc., 875 F.3d 1219 (9th
Cir. 2017)). In that case (where the panel included the
same Judge who authored the opinion here), the court
found the disclosure insufficient because the complaining customers “were outsiders who lacked any
firsthand knowledge of Yelp’s practices,” whereas
here, “Erhart [was] a former insider of the company

29
who had personal knowledge of the facts he alleged.”
Id. Contrary to petitioners’ assertions, then, the Ninth
Circuit is not merely rubberstamping loss-causation
pleadings, but rather is engaging in a searching and
entirely fact-bound inquiry in individual cases.
Meanwhile, the Ninth Circuit was absolutely
right to consider the magnitude of the drop because it
obviously effects the plausibility of an allegation that
a particular disclosure caused the price to fall. That’s
because, in general, a big drop occurring immediately
after a plausibly important disclosure is a much better
indication that something unique happened than a
smaller drop occurring over a period of weeks. In other
words, the features of the price drop itself—including
its magnitude, timing, and trading volume—clearly
should be factors in sorting out the fact-bound question of loss causation associated with particular market events. Indeed, it is hard to conceptualize a losscausation inquiry that doesn’t at least look at the nature of the drop itself.
III. There Is No Need To Reconsider A
Precedent This Court Recently Reaffirmed.
After wading through two questions undeserving
of this Court’s attention, we get to the true source of
petitioners’ ire—the Basic presumption. But petitioners’ request to overrule Basic does not deserve even
passing consideration: If stare decisis means anything, it requires treating as settled a thirty-threeyear-old precedent regarding a statute Congress has
repeatedly amended when this Court already reaffirmed that precedent within the last decade.

30
1. In 2014, this Court in Halliburton II considered—and soundly rejected—the argument that “securities fraud plaintiffs should always have to prove direct reliance and that the Basic Court erred in allowing them to invoke a presumption of reliance instead.”
573 U.S. at 269. And in so doing, it directly addressed
petitioners’ argument here—i.e., that the efficient capital markets hypothesis is no longer tenable because
markets are not actually fundamentally efficient. Id.
at 270. The Court found Halliburton’s argument regarding “the debate among economists about the degree to which the market price of a company’s stock
reflects public information about the company,” unpersuasive. Id. at 271. Indeed, the Court observed, that
argument was considered in Basic itself. Id. Focusing
on that debate misses the point, as the Basic presumption is “based … on the fairly modest premise that
‘market professionals generally consider most publicly
announced material statements about companies,
thereby affecting stock market prices.’” Id. at 272
(quoting Basic, 485 U.S. at 247 n.24). Because that
“modest premise” had not been refuted (indeed, even
critics of the hypothesis agreed that public information affects stock prices), the Court found that “Halliburton ha[d] not identified the kind of fundamental
shift in economic theory that could justify overruling a
precedent.” Id.
Principles of stare decisis weigh heavily against
overruling decades-old precedent, especially precedents that Congress can change if it wants. Halliburton II, 573 U.S. at 274 (“The principle of stare decisis
has ‘special force’ ‘in respect to statutory interpretation’ because ‘Congress remains free to alter what we
have done.’”) (quoting John R. Sand & Gravel Co. v.

31
United States, 552 U.S. 130, 139 (2008)). But those
principles weigh even more heavily against overruling
more-recent cases that explicitly decided not to overrule such precedents, when all that has plausibly
changed over the intervening time period is the composition of the Court. Notably, while petitioners argue
that stare decisis “weighs less heavily against correcting errant economic analysis,” Pet. 27, that argument
ignores that this Court already decided the level of
stare decisis to apply to the Basic presumption in Halliburton II. See 573 U.S. at 274 (holding that, because
“Congress may overturn or modify any aspect of [the
Court’s] interpretations of the reliance requirement,
including the Basic presumption itself,” there was “no
reason to exempt the Basic presumption from ordinary
principles of stare decisis.”). As this failing indicates,
petitioners simply cannot avoid that they are asking
for a redo on Halliburton II, which was itself a request
for a redo on Basic. The Court can thus swiftly brush
aside petitioners’ request.
2. And in any event, none of the purported
changes petitioners cite from the past seven years
come close to the “special justification” required to
overrule Basic.
First, petitioners note the “increasing extent” to
which individual stock valuations “are influenced by
inclusion in indices and exchange traded funds.” Pet.
24. The concept and popularity of passive investing
was well known to this Court in 2014 (indeed, petitioners’ source for a “preference shift towards index fund
investing” is an article from 2012, id.). See A Remarkable History, Vanguard, https://vgi.vg/3wNAGBF (last
visited June 25, 2021) (noting that Vanguard launched

32
the first index mutual fund in 1976); see also Transcript of Oral Argument at 6-7, Halliburton II, 573
U.S. 258 (2014) (No. 13-317) (Halliburton’s counsel
stating: “Many investors, such as … index fund investors … do not rely on the integrity of the market
price”). Moreover, this argument does nothing to
break down the “modest premise” of Basic that publicly available information generally affects stock
prices—a principle on which index investing relies.
See, e.g., In re Countrywide Fin. Corp. Sec. Litig., 273
F.R.D. 586, 602 (C.D. Cal. 2009) (“Defendants argue
that because index purchases seek to match a predetermined index of securities, such purchases are not
made in reliance on any misrepresentation.” Not so,
“because index purchases seek only to match the index
and exclude other considerations (such as, for example, reliance on nonpublic information or other idiosyncratic motivations), index purchases rely exclusively upon the market to impound any representations (including misrepresentations) into securities’
prices.”).
Next, petitioners cite to behavior by social mediadriven traders (such as what happened with
GameStop stock), as well as short sellers. Pet. 24-25.
But the Halliburton II Court already said that the continuing vitality of the Basic presumption is unaffected
by the behavior of some traders. 573 U.S. at 273. Further, the Court rejected the argument that value investors (those who attempt “to beat the market” on the
belief that stocks are under- or overvalued) do not rely
on price integrity. Id. And as Judge Easterbrook,
writing for the Seventh Circuit in Schleicher v. Wendt,
618 F.3d 679, 684-85 (7th Cir. 2010), explained:

33
Defendants’ insistence that short sellers don’t
rely on the market price suggests that they
misunderstand the efficient capital market
hypothesis, which underlies the fraud-on-themarket doctrine…. Short sellers play a role
in aligning prices with information under any
version of the efficient capital market hypothesis. That the resulting price may be inaccurate does not detract from the fact that false
statements affect it, and cause loss, whether
or not any given investor reads and relies on
the false statement. That’s all that Basic requires.
Finally, petitioners come to this Court complaining more broadly about “vexatious” securities class action litigation. Pet. 26. Again, as this Court already
stated in Halliburton II, those concerns are best addressed to Congress. 573 U.S. at 276-77 (noting that
concerns about abusive securities class actions “are
more appropriately addressed to Congress, which has
in fact responded,” by passing the PSLRA and the Securities Litigation Uniform Standards Act of 1998,
Pub. L. No. 105-353, 112 Stat. 3227).
In short, petitioners’ arguments run straight into
Halliburton II at every turn. The third question presented should be denied.

34
CONCLUSION
For the foregoing reasons, the petition for a writ
of certiorari should be denied.
Respectfully submitted,
Richard M. Heimann
Katherine Lubin Benson
Michael K. Sheen
LIEFF CABRASER
HEIMANN &
BERNSTEIN, LLP
275 Battery Street
29th Floor
San Francisco, CA 94111
(415) 956-1000
rheimann@lchb.com
Daniel P. Chiplock
Michael J. Miarmi
Jessica A. Moldovan
LIEFF CABRASER
HEIMANN &
BERNSTEIN, LLP
250 Hudson Street
8th Floor
New York, NY 10013
(212) 355-9500

June 25, 2021

Eric F. Citron
Counsel of Record
Molly Runkle
GOLDSTEIN &
RUSSELL, P.C.
7475 Wisconsin Ave.
Suite 850
Bethesda, MD 20814
(202) 362-0636
ecitron@goldsteinrussell.com

